<html>
<title> - ORGANIZATIONAL MEETING FOR THE 116TH CONGRESS; COMMITTEE RULES; ANTI- HARASSMENT POLICY; PARKING POLICY; AND ELIGIBLE CONGRESSIONAL MEMBER ORGANIZATION REGULATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 ORGANIZATIONAL MEETING FOR THE 116TH CONGRESS; COMMITTEE RULES; ANTI-
 HARASSMENT POLICY; PARKING POLICY; AND ELIGIBLE CONGRESSIONAL MEMBER 
                        ORGANIZATION REGULATIONS

=======================================================================

                         ORGANIZATIONAL MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, FEBRUARY 7, 2019

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on the Internet:
                             www.fdsys.gov
                             
                             
                             _________ 
                                  
                  U.S. GOVERNMENT PUBLISHING OFFICE
35-818                      WASHINGTON : 2019                                  
                             
                             
                             
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
SUSAN A. DAVIS, California             Ranking Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California


        COMMITTEE ORGANIZATIONAL MEETING FOR THE 116TH CONGRESS

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:04 a.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Raskin, Butterfield, 
Fudge, Aguilar, Davis of Illinois, and Walker.
    Staff Present: Jamie Fleet, Staff Director; Peter Whippy, 
Communications Director; Sean Jones, Legislative Clerk; Khalil 
Abboud, Deputy Staff Director; David Tucker, Parliamentarian; 
Veleter Mazyck, Chief of Staff, Office of Representative Fudge; 
Lisa Sherman, Chief of Staff, Office of Representative Susan A. 
Davis; Becky Cornell and Evan Dorner, Office of Representative 
Aguilar; Kendra Brown and Kyle Parker, Office of Representative 
Butterfield; Julie Tagen and Lauren Doney, Office of 
Representative Raskin; Ryan Walker and Carson Steelman, Office 
of Representative Walker; and David Ross, Office of 
Representative Rodney Davis.
    The Chairperson. Welcome. This is our first meeting of the 
Committee on House Administration, and the Committee will come 
to order. A quorum being present, we will proceed.
    This morning, the Committee on House Administration will 
adopt Committee Rules of Procedure for the 116th Congress, 
establish a Subcommittee on Elections, adopt the parking policy 
for this Congress, and address a number of matters that the 
Committee has a responsibility for regulating.
    I am looking forward to a productive Congress for the 
Committee, and we will have our first hearing next week on 
reforms to our democracy.
    We will be hearing from our Committees soon about their 
funding needs as well, and we intend to look at all the 
agencies under our jurisdiction, how the Library of Congress 
can better serve Congress, imagining new museums as part of the 
Smithsonian Institution, and asking if the Capitol Police have 
the right tools to keep Members, staff, and visitors safe, both 
in D.C. and in our districts.
    We intend to look at how Congress works, reviewing our 
Member and Committee handbooks, as well as tackling changes to 
the franking rules.
    I would like to quickly introduce our members. We have two 
returning members: Representative Jamie Raskin, who represents 
the Eighth District of Maryland, and who, without objection, is 
named vice chairperson of the Committee; and Representative 
Susan Davis, who is on her way, who represents the 53rd 
District of California, and who will chair the Franking 
Commission at Speaker Pelosi's request.
    And we are joined by three new members: Representative G.K. 
Butterfield, who represents the First District of North 
Carolina; Representative Marcia L. Fudge, who represents the 
11th District of Ohio; and Representative Pete Aguilar, who 
represents the 31st District of California.
    I will now recognize our ranking member, Mr. Rodney Davis 
of Illinois, for the purposes of making an opening statement 
and to introduce his fellow Republican members.
    Mr. Davis of Illinois. Well, thank you, Madam Chairperson. 
It is an honor to not just be the ranking member, but to be a 
partner with you at this Committee that has such a history of 
bipartisanship.
    I would like to welcome all of the new members to the House 
Administration Committee, many friends. And then, I would like 
to welcome all the new members except for Mr. Aguilar.
    Pete, it is good to have you, my friend. I missed you on 
the Ag Committee.
    But as you can tell, bipartisanship actually works in this 
institution, no matter what you see and hear in the news media, 
and it is great to see so many of my good friends on the other 
side of this dais. And this Committee is one that really means 
bipartisanship, and I know we can work together to make things 
happen.
    I want to take a moment to introduce the Republican members 
of this Committee. Not a real long line in the minority. Jamie, 
I know, Zoe, I know how you guys felt. You know, 50 percent of 
them are here right now.
    So I am going to introduce my good friend Mark Walker, who 
is returning to this Committee. People who want to step up and 
serve on House Administration understand the importance of 
making sure that the House operates in a way that actually 
encourages bipartisanship, and I am very proud to have Mr. 
Walker back on this Committee. I would like to nominate him as 
my vice ranking member, because no one else is here.
    So there you go, buddy. I don't know if I can do that or 
not, they haven't told me.
    But Mark is serving his third term in the House and is here 
from the great State of North Carolina.
    Barry Loudermilk, another returning member of the 
Committee, is not here, but also a valued member of our side of 
the aisle and somebody who understands what it means to 
actually get things done in the House of Representatives.
    You know, my top priority for this Committee is to make the 
House work. And as a former staffer, just like Chairperson 
Lofgren, we come with a unique set of experiences in making 
sure that we get into the nitty-gritty and the details of House 
operations that many find boring, many find not intriguing to 
work on when they are here. But I know I share the same goal 
with the chairperson, to make sure that this House works 
better.
    Through this Committee's oversight role we must continue to 
strengthen the implementation of proper internal controls over 
the financial processes in the House, too. That is something I 
worked on as a staffer for 16 years, and was proud to co-chair 
the reorganization of our House finances with Chairperson 
Lofgren in the last Congress.
    We also have got to do what we can in this Committee to 
professionalize the House. I look and I see the staffers 
sitting behind the members, and I was once you. And I know that 
you want professionalism also. And I believe that you will see 
the members of this Committee will also strive to ensure that 
your talents and what you do on a daily basis actually is 
promoted, rather than torn down in the media, in this 
institution.
    We also have to improve the safety and the security for 
millions of visitors that come to this campus. We take for 
granted as Members of Congress that many of our constituents, 
they take their savings for a year and they come out here to 
Washington, D.C., to experience the Nation's capital. And we 
have got to do everything we can as a bipartisan Committee to 
ensure that those visits, what we represent here in Washington, 
D.C., is also representative of what this great country is all 
about.
    And, finally, our Committee is charged with protecting the 
foundation of our democracy and government. Namely, the sacred 
right to vote. We will work on this Committee and through the 
Subcommittee on Elections to continue our duty to safeguard the 
Federal election process and make certain that this process 
remains open, free, and fair and functioning to the highest 
level of integrity. We want to ensure that every American's 
vote is both counted and protected.
    I am honored to serve as the ranking member of this key 
Committee. I look forward to working closely with my 
colleagues, especially Chairperson Lofgren. And I look forward 
to a very productive 116th Congress with each of you, even Mr. 
Aguilar.
    The Chairperson. Thank you very much. I didn't realize 
there was a prior legislative relationship between you and Mr. 
Aguilar.
    Does any other member wish to make comments before we 
proceed to the business before us?
    If not, I will call up Resolution 116-01, and, without 
objection, the resolution will be considered as read and open 
to amendment at any time.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
          
    The Chairperson. I recognize myself for 5 minutes.
    Our first order of business is adoption of the Committee 
Rules for the 116th Congress as required by clause 2(a) of 
House rule XI. A copy of the proposed rules is provided to each 
member.
    I have worked closely with Mr. Davis on these proposed 
rules and have accepted two of his recommendations. Our 
proposed rules provide the Committee additional tools to pursue 
our oversight work.
    One of these tools is a provision authorizing the 
chairperson of the Committee, after consultation with the 
ranking minority member, to authorize and issue a subpoena. Mr. 
Davis asked that we change the standard for dispensing with 
consultation, which, honestly, I do not expect will occur, 
regarding the issuances of a subpoena under this authority, and 
we have accommodated his request.
    We have also accepted Mr. Davis' request that the ratio of 
majority to minority members on any task forces, panels, 
special, or select subcommittees that may be appointed to 
perform specific functions for limited periods of time be the 
same as the ratio for our Subcommittee on Elections, and I 
agree, obviously, with that.
    Our proposed rules also create a Subcommittee on Elections 
and make a number of minor changes to conform to the rules 
package passed by Congress last month.
    I would now recognize our ranking member for any statement 
on the resolution he may have and thank him for working closely 
with us on this.
    Mr. Davis of Illinois. Well, thank you, Madam Chair.
    I would first like to, again, thank you and your staff for 
their efforts to make available draft copies of the Committee 
Rules prior to this morning's meeting, and also making 
accommodations to the concerns that we had that you just 
mentioned. It is in that effort of bipartisanship that this 
Committee has operated for many years, and I hope to carry this 
on through this 116th Congress.
    One item, though, that is not on the agenda today but has 
been included in previous organizational meetings of this 
Committee is the formal adoption of an oversight plan. I know 
that this is a result of a change in House rules, and you will 
be submitting an oversight plan by March 1 rather than voting 
today to formally adopt a plan.
    It is still my expectation, consistent with House rules, 
that the minority will be consulted on the development of this 
plan. As I mentioned in my opening statement, I believe that 
the overwhelming majority of the oversight issues, especially 
in this Committee, can be addressed in a very bipartisan 
manner.
    Madam Chair, it is in this same spirit that I ask that if 
you deem it necessary to exercise this committee's new subpoena 
and deposition authority, we do so in a thoughtful and 
judicious manner.
    Finally, I ask that if you order the taking of depositions 
by counsel, that you will consult and include the minority, 
consistent with the regulations adopted by the Rules Committee.
    The Chairperson. Thank you, Mr. Davis.
    It certainly is our intention. As you note, the House rules 
no longer require the formality, but we do intend to have 
oversight planning. We certainly will welcome the participation 
of the minority in that plan.
    It is my intention to act in a judicious manner at all 
times as chairperson of the Committee, and certainly to consult 
with the minority relative to any depositions that may be taken 
by staff, as well as subpoenas that may be issued, although we 
don't know how frequent the use of that tool will be.
    Mr. Davis of Illinois. Well, it is with my thanks, and with 
our experience of working well together in a very bipartisan 
manner in previous Congresses that I expect this Committee will 
continue to be a beacon of bipartisanship in a very partisan 
institution over the next couple of years.
    The Chairperson. Thank you.
    Does any member wish to offer an amendment or speak on the 
resolution?
    Seeing none, the question is now on the motion to adopt 
Resolution 116-01.
    All those in favor will say aye.
    Opposed will say no.
    The ayes have it, and the motion is agreed to. And, without 
objection, the motion to reconsider is laid on the table.
    Pursuant to clause 2(a) of House Rule XI, the rules adopted 
by the Committee on House Administration for the 116th Congress 
will be published in the Congressional Record and made 
available to Members and the public on the Committee's website.
    I will now call up Resolutions 116-02 through Resolution 
116-07 to consider en bloc. I understand the minority has 
agreed to this. I wanted to say a few words about them, 
however, and the bipartisan work on these that is really the 
hallmark of our Committee.
    Resolution 116-02 establishes the membership of the 
Subcommittee on Elections, which was reconstituted under our 
rules. As the former chairperson of the Elections Subcommittee, 
I know how important it can be to focus very closely on voting 
rights issues.
    Our chairperson of the Subcommittee, Marcia Fudge, is 
intending to hold a series of field hearings around the country 
to gather evidence from voters and experts about how recent 
changes in voting laws, especially the Supreme Court's decision 
in Shelby County v. Holder, have affected access to the ballot. 
That is important work. It may be augmented by additional 
hearings here in the Capitol.
    Resolution 116-03 provides for the parking policy in the 
116th Congress. The policy for this Congress follows that of 
the last Congress, with several improvements and enhancements. 
This policy addresses those Members and staff who are habitual 
parking policy violators by providing that violators will be 
towed and potentially permanently banned from parking on the 
House campus, subject to the direction of this Committee.
    Furthermore, nonelectric vehicles parked in electric 
vehicle and hybrid charging stations areas will be subject to 
penalties.
    Resolution 116-04 requires all employing offices covered by 
the Congressional Accountability Act to adopt anti-
discrimination and anti-harassment policies for their 
workplace. We have developed a model policy that Members can 
utilize, so we don't have to reinvent the rule, but every 
office is expected to do this.
    Resolution 116-05 provides regulations prohibiting the use 
of House exercise facilities by former Members who are 
registered lobbyists.
    Resolution 116-06 updates the regulations found in the 
Members' Congressional Handbook regarding eligible 
congressional membership organizations, or ECMOs, to reflect 
rule changes for this Congress and to give the chairperson and 
ranking member of this Committee waiver authority when 
considering requests to establish an ECMO.
    And finally, Resolution 116-07 requires all Member offices, 
including district offices, to display a statement of rights 
and protections provided to House employees.
    Again, I want to thank Ranking Member Davis for working 
closely with us on these resolutions, and I would now recognize 
him for any remarks he wishes to make on these resolutions.
    Mr. Davis of Illinois. To the happiness of the rest of the 
Committee, I will offer no other remarks, but thanks.
    The Chairperson. All right.
    Does any other member wish to speak on these resolutions? 
Seeing none, I will now call up Resolutions 116-02, 116-03, 
116-04, 116-05, 116-06, and 116-07, and ask unanimous consent 
that they be considered en bloc, that further reading of these 
resolutions be dispensed with and that they are open for 
amendment at any time.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. The question is now on the en bloc 
resolutions.
    All those in favor will say aye.
    Opposed will say no.
    The ayes have it, and the en bloc resolutions are agreed 
to. And without objection, the motion to reconsider is laid 
upon the table.
    This concludes the business before the Committee this 
morning. Without objection, staff is authorized to make any 
necessary technical and conforming changes.
    I would like to thank all the members for their 
participation. I look forward to working with you in the months 
ahead to accomplish the vital work of this Committee.
    And I want to thank our staff as well who have worked so 
hard to make this a smooth meeting.
    The Committee on House Administration is now adjourned.
    [Whereupon, at 10:21 a.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
